NO. 20-1046
IN THE

Supreme Court of the United States
MARIN HOUSING AUTHORITY,

v.
KERRIE REILLY,

Petitioner,

Respondent.

PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby certify that
on this third day of March 2021, I have served three (3) true copies of
the Brief of the California Association of Housing Authorities as Amicus
Curiae in Support of Petitioner and Reversal; by priority mail, postage
prepaid upon:
Attorneys for Petitioner
Robert Cooper
Wilson Elser Moskowitz Edelman & Dicker LLP
555 S. Flower Street
Suite 2900
Los Angeles, CA 90071
213-330-8950
robert.cooper@wilsonelser.com
Attorneys for Respondent
Nathaniel Peardon Garrett
Jones Day
555 California Street, 26th Floor
San Francisco, CA 94104
4158755731
ngarrett@jonesday.
Signed under the pains and penalties of perjury,
/s/

Rita L. Hemenway

Rita L. Hemenway
NOTARIZED BY:
/s/

George D. Bateman

George D. Bateman
My Commission Expires: May 30, 2025

